                                                                               ~ioseout-
                                   NATIONAL SCIENCE FOUNOATION             .               Page
                                                                                             -
                                                                                                1 of 1
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL




MEMORANDUM

Date:            October 27, 1998
             -    -      -   -           -   -                                      -      -             ---.   -

To:              File No. I98080019

From:                                  pecial Agent,
                                    I vestigations Section

Through:     ,                       Special

Re:              Case Closeout -


         und:
b              r of the Univ                                         ceived funding from NSF through
grant no.                Bet                                         attended a conference in Japan
sponsored by the University o                                        eld the conference using funds
fiom NSF grant no.           ).

                                      performed a proactive review of conference awards and found
                                 ouble billed his travel expenses from this conference. It appeared
                                            reimbursements from both            and-    for an airline
                                             Investigations for further review.

Investigation:
We requested travel vouchers and supporting documents for f            f r o m f o r the past 2
years. We also requested travel vouchers and supporting documents rom
reimbursements to            for attending the conference. The ticket to Japan cost $3 150.00.
                                                     $1575.00, half the price of the ticket. The
                                                    will be paid -b         The vouchers for the
                                                       and, there was also a note stating that


Findings:
            id not double bill NSF for the airline ticket to Japan. After reviewing the remaining
                 we found no further indications of fraud. The case is closed.
